The U.S. International Trade Commission is an independent, nonpartisan, quasi-judicial federal agency
that provides trade expertise to both the legislative and executive branches of government, determines the
impact of imports on U.S. industries, and directs actions against certain unfair trade practices, such as
patent, trademark, and copyright infringement. USITC analysts and economists investigate and publish
reports on U.S. industries and the global trends that affect them. The agency also maintains and publishes
the Harmonized Tariff Schedule of the United States.




                                             Commissioners
                                        Deanna Tanner Okun, Chairman
                                        Irving A. Williamson, Vice Chairman
                                        Charlotte R. Lane
                                        Daniel R. Pearson
                                        Shara L. Aranoff
                                        Dean A. Pinkert
         UNITED STATES INTERNATIONAL TRADE COMMISSION

                             OFFICE OF INSPECTOR GENERAL
                                     WASHINGTON, DC 20436

VIA ELECTRONIC TRANSMISSION



September 29, 2011                                                       OIG-JJ-018


Chairman Okun:

This memorandum transmits the Office of Inspector General’s final report Audit of Incident
Management, OIG-AR-11-16. In finalizing the report, we analyzed management’s comments on
our draft report and have included those comments in their entirety in Appendix A.

This report contains eight recommendations for corrective action. In the next 30 days, please
provide me with your management decisions describing the specific actions that you will take to
implement each recommendation.

Thank you for the courtesies extended to my staff during this audit.

Sincerely,



Philip M. Heneghan
Inspector General
                          U.S. International Trade Commission

                                              Audit Report


                                        Table of Contents
Results of Audit ............................................................................................. 1

Problem Areas ............................................................................................... 1
   Problem Area 1: The Commission does not have an incident response plan. .............. 1

   Problem Area 2: The Commission does not have an incident detection program. ....... 4

Management Comments and Our Analysis ............................................... 5
Scope and Methodology................................................................................ 6

Appendix A: Management Comments on Draft Report ......................... A




OIG-AR-11-16                                         -i-
                      U.S. International Trade Commission

                                      Audit Report


                                  Results of Audit
Does the USITC’s incident management program provide senior management with
detailed, actionable information regarding security incidents?

No. USITC’s incident management program does not provide senior management with
detailed, actionable information regarding security incidents.

The Commission’s incident response plan lacks the specifics required to enable staff to
successfully respond to incidents. Incidents are being handled on an ad-hoc basis, and
the Commission does not have a method to use the knowledge gained from these
incidents to avoid similar incidents in the future, or increase the speed and effectiveness
of eradicating intrusions once detected.

The Commission does not have an incident response plan or an incident detection
program. Without these key building blocks, it is not possible for senior management to
receive actionable information regarding security incidents.



                                   Problem Areas

                                       Problem Area 1:

              The Commission does not have an incident response plan.


The Commission has a document that consists of 98 pages of largely redundant
boilerplate from documents generated by the National Institute for Standards and
Technology (NIST), and inappropriately borrowed sections from documents defining the
program mission of the U.S. Computer Emergency Readiness Team. U.S. CERT is a
component of the Department of Homeland Security whose mission is to “improve the
nation's cybersecurity posture, coordinate cyber information sharing and proactively
manage cyber risks to the nation.” An example of this includes the following passages
from pages 78-79 of the Information Security Incident Response plan, dated March 2010,
Version 3.0:

   •   Report on new and novel attack techniques used in the exploitation of systems;
   •   Report on malicious code found in the wild to promote awareness and encourage
       appropriate action;




OIG-AR-11-16                                -1-
                      U.S. International Trade Commission

                                       Audit Report


   •   Work with the community to develop tools and techniques to nullify the effects of exploits
       as they occur…

These tasks are specific for the agency whose mission it is to help serve the government
community, but they are not appropriate for the Commission.

We spoke with several operational and network security technical staff about the
Information Security Incident Response plan, but we were unable to find anyone who had
actually read, much less used this “plan.”

In developing this plan, the Commission focused on compliance with various regulatory
standards. A focus on compliance unfortunately can place a higher value on paperwork
instead of the actual strength of program implementation. The Commission’s incident
response plan contains all the right words, but it fails to detail a plan that is specific and
useful to the Commission.

The Commission recently discovered that Trojan software was installed on some of its
systems. While no information security program can be expected to deny all penetration
attempts, this event demonstrated a lack of preparedness by the Commission to either
detect or respond to serious information security incidents.

The Commission’s response to this incident highlighted a number of problems:

   1. Not all systems at risk for the Trojan were checked by staff. Of the systems
      checked by operational staff, records were not created detailing which systems
      were checked by whom, at what time, and the methods used to check these
      systems.
   2. Users were not notified that their personal data had been stolen. A keystroke-
      logging Trojan affected at least 59 Commission users since February, 2009. We
      interviewed 6 of the affected users and asked whether they had been notified
      about any security incidents involving their data. Several responded that their
      hard drives had been swapped, but none were notified with any specifics of the
      incident.
   3. Despite detection on June 9, 2011, the Trojan software was still on the network as
      late as July 8, 2011.

An effective incident response plan must include the tasks of checking all systems at risk,
and of recording the actions taken to assess these systems. With sufficient planning, this
will ensure a comprehensive assessment, and can give the Commission confidence that
the impact of an incident is fully known and remediation is complete.




OIG-AR-11-16                                  -2-
                     U.S. International Trade Commission

                                     Audit Report


Users must be notified when their data has been stolen. With a keystroke-logging
incident such as that experienced recently, any activity the users performed on their
computers was recorded and taken, including their credentials to login to banks, email,
and other platforms. Users should be made aware of these types of incidents, so they can
change passwords or take other steps to protect themselves.

During the response to the recent incident, remediation was performed by “sneaker-net.”
Help Desk staff were assigned to physically walk to affected systems and replace their
hard drives. It is inefficient to rely on this as a primary response. The attacker did not
walk into the building to install the software on each user’s system; the Commission’s
primary response should not employ such a slow, haphazard, and ineffective means of
undoing his work. The Commission needs to develop and practice automated, high-speed
solutions to perform system-wide detection and removal of malware in the event of an
incident.

The Commission has the tools and staff available to create an effective incident response
program, but this will not happen unless the focus shifts from compliance to risk
management.

Recommendation 1:

   Develop a useful, concise incident response plan specific to the Commission's staff,
   tools, and networks.

Recommendation 2:

   Develop a listing of all networks and systems to be checked when an incident occurs.

Recommendation 3:

   Record information regarding incident handling to include what was checked, who
   performed the check, when these systems were checked, how they were checked, and
   the results of these checks. If any systems are not checked, reasoning for doing so
   should be recorded.

Recommendation 4:

   Develop a procedure to notify and counsel users when their systems have been
   compromised.




OIG-AR-11-16                               -3-
                      U.S. International Trade Commission

                                      Audit Report


Recommendation 5:

   Define a threshold to determine when an incident is widespread and ensure any
   widespread incidents are communicated to all Commission staff.




                                       Problem Area 2:

            The Commission does not have an incident detection program.


The Commission’s focus on compliance resulted in the assignment of staff to create or
oversee the creation of documentation. Staff were not assigned to analyze traffic and
detect abnormal activity. While sophisticated attacks are designed to avoid detection, all
of them result in system changes and logged events that can lead to their detection. The
Trojan attack had been generating error events on the firewall since March 2010, but
because staff and systems were not dedicated to incident detection, the attack continued
until June 2011. The incident was finally detected by a new member of the operations
staff during the testing of a new network analysis tool.

The Commission’s antivirus detection software serves as a primary line of defense
against malware such as that recently found. The antivirus in use by the Commission did
not detect the Trojan malware. Upon testing, it was found that antivirus software from
other major vendors was able to detect the infection. One strategy organizations use is to
employ antivirus from multiple vendors to increase the probability of detection. The
Commission can deploy antivirus from another vendor and perform repeated, scheduled
scans of the fileservers to detect malware not identified by the antivirus product in use on
workstations.

Recommendation 6:

   Assign staff dedicated to the detection of incidents.

Recommendation 7:

   Improve monitoring so that staff are alerted to unexpected traffic being denied by
   security infrastructure.




OIG-AR-11-16                                -4-
                     U.S. International Trade Commission

                                     Audit Report


Recommendation 8:

   Implement weekly scanning of fileservers with antivirus software different than that
   used on workstations and email systems.



              Management Comments and Our Analysis
On September 27, 2011, Chairman Deanna Tanner Okun provided management
comments on the draft audit report. The Chairman agreed with our assessment that there
are two problem areas in that the Commission does not have an incident response plan, and
it does not have an incident detection program, and that the Commission will implement the
recommendations detailed to strengthen its incident management program. The
Chairman’s response is provided in its entirety as Appendix A.




OIG-AR-11-16                               -5-
                      U.S. International Trade Commission

                                        Audit Report


                             Scope and Methodology
Scope:

       •   This audit focused on the Commission’s Incident Response program,
           including a review of the Commission’s documented procedures, and past
           performance of incident management.

Methodology:
       1. Review documented procedures.
       2. Assess documentation concerning prior incidents.
       3. Interview program staff to assess their knowledge and roles related to incident
          detection.
       4. Analyze incident detection tools in use to assess their capabilities, and identify
          potential gaps in coverage.
       5. If evidence of previous incidents exists, contact users to gather information
          concerning their experience, including guidance received by technical staff.


We conducted this performance audit in accordance with Generally Accepted
Government Auditing Standards (GAGAS). Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.




OIG-AR-11-16                                  -6-
               U.S. International Trade Commission

                           Appendix A


    Appendix A: Management Comments on Draft Report




OIG-AR-11-16                  -A-
“Thacher’s Calculating Instrument” developed by Edwin Thacher in the late 1870s. It is a cylindrical, rotating slide
rule able to perform complex mathematical calculations involving roots and powers quickly. The instrument was used
by architects, engineers, and actuaries as a measuring device.
